No.
IN THE
SUPREME COURT OF THE UNITED STATES

PETITIONER
vs.

State of Kansas, RESPONDENTS.
PROOF OF SERVICE
do swaer or declare that on this date,
I y ^2021- as required by U.S. Supreme Court Rule 29, I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that partys
counsel and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail, properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within three calendar days.
I,

The names and addresses of thoes served are as follows:
Kansas Attorney Generals Office
Criminal Litigation Disivion
Memorial Hall 120 SW 10th Ave, 2nd Floor
Topeka, Kansas 66612-1597
I declare under the penalty of perjury that the foregoing is true and correct.
, 2021

Executed on

Oi (&CUJ Sex'""

No.
IN THE
SUPREME COURT OF THE UNITED STATES

PETITIONER
vs.
State of Kansas, RESPONDENTS.

In accordance with U.S. Supreme Court Rule 29 (2) this PETITION FOR A WRIT OF
CERTIORARI was placed in Ellsworth Correctional Facility internal mail system
2021 with first class postage prepaid and is timely filed under
on. AAca-CCK | % ^
Rule 29 (2)

In accordance with 28 USCS ยง 1746 I declare under the penalty of perjury that the
foregoing is true and correct. Executed on

